The Department of Justice Office of the Inspector General (OIG) today released a report
examining the performance of three programs at the Federal Bureau of Investigation (FBI) and
Executive Office for U.S. Attorneys (EOUSA) funded through the Crime Victims Fund (CVF), as
well as EOUSA’s accounting and reporting of CVF funds. In general, the OIG did not find
significant non-compliance issues, though we did identify limited instances where victims were
not afforded all their rights or provided required services, as well as inadequacies with EOUSA’s
internal controls over CVF funds.

The report released today is a companion to the OIG’s September 2013 report examining the
FBI’s accounting and reporting of CVF funding used to support FBI Victim Specialist positions.
The FBI received between $14 million and $18 million in CVF funds for fiscal years (FY) 2009
through 2012 to support the 134 Victim Specialists assigned to divisions and field offices across
the country. From FYs 2009 through 2012, EOUSA received between $22 million and
$23 million annually in CVF funds to support its 170 Victim-Witness Coordinators. In addition,
EOUSA received between $4 million and $7 million to support the federal Victim Notification
System (VNS), an automated database that provides mandated notifications to victims of
federal crimes.

Although today’s report did not identify any significant non-compliance with the rules,
regulations, and guidelines governing the performance of the CVF funded positions or the VNS,
we did identify limited instances where victims were not afforded their rights under the Crime
Victims’ Rights Act or provided services under the Victims’ Rights and Restitution Act. On some
occasions, victims were not afforded their right to reasonable, accurate, and timely notice of
public court proceedings. The audit identified areas for improvement that should enhance
victims’ services, such as improved coordination when cases are transitioned from investigative
agencies to the USAOs and when providing services in Indian Country, enhancements to the
functionality of the VNS, and improved performance reporting.

In addition, we found that EOUSA did not have adequate internal controls over CVF funds,
resulting in $685,047 in unallowable Victim-Witness Coordinator expenditures, as well as
insufficient accounting records for the CVF funds provided to support VNS Coordinator positions
at the FBI, Federal Bureau of Prisons, and U.S. Postal Inspection Service. EOUSA also
underreported the amount of CVF funding that remained unspent for the Victim-Witness
Coordinator program by approximately $228,483 in FY 2009 and $329,539 in FY 2011, and the
amount of CVF funding that remained unspent for the VNS was underreported by approximately
$29,475 in FY 2010 and $65,726 in FY 2011. Such inadequate accounting, administration, and
reporting resulted in an increased risk for the misuse of CVF funds and the failure to pursue
appropriate reimbursements for expenditures. Future misstatements of total expenditures also
could increase the risk that EOUSA may be awarded more CVF funds than it may need in the
future.

The report released today made 10 recommendations to enhance program performance and
improve the effectiveness of EOUSA’s internal controls over CVF funds. The EOUSA, FBI, and
OVC concurred with all recommendations.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2014/a1433.pdf.
